  Department of Health and Human Services
                    OFFICE OF


               INSPECTOR GENERAL





   MOST OF THE COSTS CLAIMED BY
   WASHINGTON UNIVERSITY IN ST.
  LOUIS UNDER AMERICAN RECOVERY
   AND REINVESTMENT ACT OF 2009
          GRANT NUMBERS
        2R01HD036904-06A2,
     3R01HD036904-07S1, AND
5R01HD036904-07 WERE ALLOWABLE


     Inquiries about this report may be addressed to the Office of Public Affairs at
                              Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley


                                               Regional Inspector General



                                                      October 2012


                                                      A-07-12-02778


                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices




    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as


 questionable, a recommendation for the disallowance of costs


 incurred or claimed, and any other conclusions and


 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating


 divisions will make final determination on these matters.


                                   EXECUTIVE SUMMARY



BACKGROUND

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
on February 17, 2009, provided $8.2 billion to the Office of the Director of the National
Institutes of Health (NIH) to help stimulate the economy through the support and advancement
of scientific research. Of the $8.2 billion, the Recovery Act transferred $7.4 billion to the NIH
Institutes and Centers and to the Common Fund. In addition, the Recovery Act provided
$400 million for comparative effectiveness research.

Recovery Act Awards to Washington University in St. Louis

Washington University in St. Louis (the grantee), founded in 1853, is a medium-sized,
independent university, located in St. Louis, Missouri. NIH awarded the grantee three related
Recovery Act grants (an original, a subsequent award, and a supplemental award) totaling
$4.9 million for research to test the efficacy and the appropriate dose of an innovative behavioral
treatment to help overweight children successfully maintain weight loss over the long term, and
to identify environmental moderators of pediatric weight loss maintenance. The grant period
was September 30, 2009, through August 31, 2011; the grantee has since received a third-year,
no-cost extension, and consequently has not spent all of the grant funds. As of August 31, 2011,
the grantee had claimed $4,062,022 under the NIH grants.

OBJECTIVE

Our objective was to determine whether costs claimed by the grantee were allowable under
applicable Federal regulations and the terms of the grants.

SUMMARY OF FINDINGS

Certain costs claimed by the grantee that totaled $737 were not allowable under applicable
Federal regulations and the terms of the grants. Specifically, the grantee claimed unallowable
costs of:

   •		 $396 associated with unallowable costs for food that was served during a meeting,

   •		 $246 for three telephone charges that were unallowable because they were charged to the
       grants as direct costs instead of as indirect costs,

   •		 $76 associated with a hotel room upgrade that was unallowable, and

   •		 $19 for two alcohol charges that were unallowable.




                                                 i
The grantee removed all of these costs from its schedule of claimed costs after we had identified
these errors during our fieldwork.

While internal controls were adequate to ensure that the majority of costs claimed were
allowable, the grantee should strengthen its internal controls to ensure that it claims all costs in
accordance with applicable Federal regulations and the terms of the grants.

RECOMMENDATIONS

We recommend that NIH:

   •		 ensure that the grantee provides supplemental training to department-level staff on grant
       costs that are allowable under Federal regulations, the terms of the grants, and grantee
       policies, and

   •		 ensure that the grantee strengthens its internal controls regarding the claiming of costs
       charged to federally sponsored projects.

GRANTEE COMMENTS

In written comments on our draft report, the grantee agreed with our first recommendation and
described corrective actions that it planned to implement. The grantee also described planned
corrective action regarding our second recommendation, but added that in its judgment, the
internal control structure within the grantee’s financial management system is “sufficient,
effective and compliant with federal costing principles.” The grantee’s written response
included some technical comments regarding this report’s title and some of its language.

The grantee’s comments appear in their entirety as Appendix A.

NATIONAL INSTITUTES OF HEALTH COMMENTS

In written comments on our draft report, NIH concurred with both of our findings and the
corresponding recommendations.

NIH’s comments appear in their entirety as Appendix B.




                                                  ii
                                                    TABLE OF CONTENTS 




INTRODUCTION........................................................................................................................ I 


      BACKGROUND ................................................................................................................... 1 

         American Recovery and Reinvestment Act of2009 .................................................... .! 

         Federal Requirements for National Institutes ofHealth Grantees ................................ ! 

         Recovery Act Awards to Washington University in St. Louis ...................................... ! 


       OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................2 

          Objective ........................................................................................................................2 

          Scope ..............................................................................................................................2 

          Methodology ..................................................................................................................2 


FINDINGS AND RECOMMENDATIONS ..............................................................................3 


      UNALLOWABLE COSTS ...................................................................................................3 

         Unallowable Costs for Food Served During a Meeting .................................................3 

         Unallowable Telephone Charges .................................................................................. .4 

         Unallowable Hotel Room Upgrade Charge .................................................................. .4 

         Unallowable Alcohol Charges .......................................................................................5 


       INTERNAL CONTROLS NEED STRENGTHENING .......................................................5 


       RECOMMENDATIONS ......................................................................................................5 


       GRANTEE COMMENTS ....................................................................................................5 


      NATIONAL INSTITUTES OF HEALTH COMMENTS ...................................................6 


APPENDIXES

      A: GRANTEE COMMENTS

      B: NATIONAL INSTITUTES OF HEALTH COMMENTS




                                                                      iii
                                       INTRODUCTION


BACKGROUND

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
on February 17, 2009, provided $8.2 billion to the Office of the Director of the National
Institutes of Health (NIH) to help stimulate the economy through the support and advancement
of scientific research. Of the $8.2 billion, the Recovery Act transferred $7.4 billion to the NIH
Institutes and Centers and to the Common Fund. In addition, the Recovery Act provided
$400 million for comparative effectiveness research.

Recovery Act funds were used to award grants and cooperative agreements to research entities
including nonprofit and for-profit organizations, universities, hospitals, research foundations,
governments and their agencies, and occasionally to individuals.

Federal Requirements for National Institutes of Health Grantees

Federal regulations at 45 CFR part 74 provide for the uniform administrative requirements for
awards and sub-awards to institutions of higher education and other nonprofit and commercial
organizations. Pursuant to 45 CFR § 74.27, the allowability of costs incurred by institutions of
higher education are determined in accordance with the cost principles contained in 2 CFR
pt. 220 (Office of Management and Budget (OMB) Circular A-21), Cost Principles for
Educational Institutions.

NIH provides additional guidance through the National Institutes of Health Grants Policy
Statement (Grants Policy Statement). The Grants Policy Statement provides NIH grantees, in a
single document, the policy requirements that serve as the terms and conditions of NIH grant
awards. The Grants Policy Statement provides general information and application information
and specifies the terms and conditions, applicable to particular types of grants, grantees, and
activities, that differ from, supplement, or elaborate on the standard terms and conditions.

Recovery Act Awards to Washington University in St. Louis

Washington University in St. Louis (the grantee), founded in 1853, is a medium-sized,
independent university, located in St. Louis, Missouri. NIH awarded the grantee three related
Recovery Act grants (an original, a subsequent award, and a supplemental award) totaling
$4.9 million for research to test the efficacy and the appropriate dose of an innovative behavioral
treatment to help overweight children successfully maintain weight loss over the long term, and
to identify environmental moderators of pediatric weight loss maintenance. The grant period
was September 30, 2009, through August 31, 2011; the grantee has since received a third-year,
no-cost extension, and consequently has not spent all of the grant funds. As of August 31, 2011,
the grantee had claimed $4,062,022 under the NIH grants.




                                                 1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether costs claimed by the grantee were allowable under
applicable Federal regulations and the terms of the grants.

Scope

We limited our review to costs the grantee claimed for the grant period of September 30, 2009,
through August 31, 2011, for NIH grants numbered 2R01HD036904-06A2,
3R01HD036904-07S1, and 5R01HD036904-07. During the review period, the grantee claimed
$4,062,022. We reviewed $2,799,599 of the direct and indirect costs claimed by the grantee as
of August 31, 2011.

We did not perform an overall assessment of the grantee’s internal control structure. Rather, we
limited our evaluation of the grantee’s accounting system to obtaining an understanding of
internal control as it related to our specific audit objective.

We performed fieldwork at the grantee’s administrative office in St. Louis, Missouri, in
December 2011.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Federal laws, regulations, and other guidance;

   •	 reviewed grant announcements, grant applications, and notices of grant awards;

   •	 interviewed grantee officials to gain an understanding of the grantee’s accounting system
      and internal controls for claiming costs under the NIH grants;

   •	 identified expended funds in the grantee’s accounting records as of August 31, 2011;

   •	 summarized costs by cost category from expenditure reports;

   •	 recalculated amounts on the August 31, 2011, expenditure report to verify mathematical
      accuracy;

   •	 compared budgeted to actual expenditures;

   •	 reviewed judgmentally selected costs claimed under the grants for allowability,

      allocability, and reasonableness; and 


   •	 discussed the results of our review with grantee officials on April 27, 2012.


                                                2

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATIONS

Certain costs claimed by the grantee that totaled $737 were not allowable under applicable
Federal regulations and the terms of the grants. Specifically, the grantee claimed unallowable
costs of:

   •	 $396 associated with unallowable costs for food that was served during a meeting,

   •	 $246 for three telephone charges that were unallowable because they were charged to the
      grants as direct costs instead of as indirect costs,

   •	 $76 associated with a hotel room upgrade that was unallowable, and

   •	 $19 for two alcohol charges that were unallowable.

The grantee removed all of these costs from its schedule of claimed costs after we had identified
these errors during our fieldwork.

While internal controls were adequate to ensure that the majority of costs claimed were
allowable, the grantee should strengthen its internal controls to ensure that it claims all costs in
accordance with applicable Federal regulations and the terms of the grants.

UNALLOWABLE COSTS

Unallowable Costs for Food Served During a Meeting

2 CFR pt. 220, Appendix A, section J.32, states: “Costs of meetings and conferences, the
primary purpose of which is the dissemination of technical information, are allowable. This
includes costs of meals, transportation, rental of facilities, speakers’ fees, and other items
incidental to such meetings or conferences. But see section J.17 of this Appendix, Entertainment
costs.”

2 CFR pt. 220, Appendix A, section J.17, states: “Costs of entertainment, including amusement,
diversion, and social activities and any costs directly associated with such costs (such as tickets
to shows or sports events, meals, lodging, rentals, transportation, and gratuities) are
unallowable.”

The grantee claimed unallowable costs of $396 for food that was served during a meeting. Costs
are allowable for food served during a meeting that has a primary purpose to disseminate
technical information. However, for this $396 food charge, the grantee did not provide adequate


                                                  3

documentation to support that the intended purpose of the meeting during which the food was
served was to disseminate technical information about the grants. Additionally, the grantee’s
budget object code description for this food charge transaction stated that it was a
“social/entertainment” reimbursement.

Federal regulations specify that food served during a meeting is not allowable if the meeting
does not have the primary purpose of disseminating grant-related technical information or if the
food is served for entertainment purposes. In this case, both of these conditions were present.
After we had identified these errors during our fieldwork, the grantee removed this charge from
its schedule of claimed costs.

Unallowable Telephone Charges

2 CFR pt. 220, Appendix A, section F.6.b.(3), states: “Items such as office supplies, postage,
local telephone costs, and memberships shall normally be treated as F&A [Facilities and
Administration] costs.”

The grantee charged $246 for three telephone charges that normally are F&A costs pursuant to
Federal regulations. F&A costs are treated as indirect costs and, as such, generally cannot be
claimed as direct costs. Additionally, the grantee’s budget object code descriptions for each of
these three transactions stated that they were “… not allowed on government grants or
contracts….” After we had identified these errors during our fieldwork, the grantee removed
these charges from its schedule of claimed costs.

Unallowable Hotel Room Upgrade Charge

2 CFR pt. 220, Appendix A, section J.53.b, states:

       Costs incurred by employees and officers for travel, including costs of lodging,
       other subsistence, and incidental expenses, shall be considered reasonable and
       allowable only to the extent such costs do not exceed charges normally allowed
       by the institution in its regular operations as the result of the institution’s written
       travel policy.

The grantee’s Policy Statement for Travel Advances & Travel Expenses states: “Costs
associated with upgrades in accommodations will generally not be reimbursed unless
standard accommodations are not available.”

The grantee charged $76 for a hotel room upgrade but did not provide documentation to show
that standard accommodations were not available. As such, this charge was unallowable under
the grantee’s travel policy and thus also unallowable pursuant to Federal regulations. After we
had identified this error during our fieldwork, the grantee removed this charge from its schedule
of claimed costs.




                                                  4

Unallowable Alcohol Charges

2 CFR pt. 220, Appendix A, section J.3, states: “Costs of alcoholic beverages are unallowable.”

The grantee charged $19 for alcohol costs, in two separate transactions, that were unallowable
pursuant to Federal regulations. After we had identified these errors during our fieldwork, the
grantee removed these charges from its schedule of claimed costs.

INTERNAL CONTROLS NEED STRENGTHENING

While internal controls were adequate to ensure that the majority of costs claimed were
allowable, the grantee should strengthen its internal controls to ensure that it claims all costs in
accordance with applicable Federal regulations and the terms of the grants.

The grantee’s controls specified that proposed grant-related transactions would first be reviewed,
approved or denied, and then (in the case of approvals) further processed by the department that
initiated the transaction. After clearing the appropriate department, the proposed grant-related
transaction would then be additionally reviewed, approved or denied, and then further processed
by the grantee’s office of Sponsored Projects Accounting. The errors discussed above had
cleared these review, approval, and processing steps, which indicates that the grantee’s internal
controls were not always adequate to ensure that all of its claimed grant-related costs were
allowable pursuant to Federal regulations and the terms of the grants.

RECOMMENDATIONS

We recommend that NIH:

   •	 ensure that the grantee provides supplemental training to department-level staff on grant
      costs that are allowable under Federal regulations, the terms of the grants, and grantee
      policies, and

   •	 ensure that the grantee strengthens its internal controls regarding the claiming of costs
      charged to federally sponsored projects.

GRANTEE COMMENTS

In written comments on our draft report, the grantee agreed with our first recommendation and
described corrective actions that it planned to implement. The grantee also described planned
corrective action regarding our second recommendation, but added that in its judgment, the
internal control structure within the grantee’s financial management system is “sufficient,
effective and compliant with federal costing principles.” The grantee’s written response
included some technical comments regarding this report’s title and some of its language.

The grantee’s comments appear in their entirety as Appendix A.




                                                  5

NATIONAL INSTITUTES OF HEALTH COMMENTS

In written comments on our draft report, NIH concurred with both of our findings and the
corresponding recommendations.

NIH’s comments appear in their entirety as Appendix B.




                                               6

APPENDIXES


                                                                                                             Page 1 of 4


                          APPENDIX A: GRANTEE COMMENTS


                                  University inStlouis
     Sponsored Projects Accounting



     July 3, 2012



     Patrick J. Cogley
     Office of the Inspector General
     Department of Health and Human Services
     Office of Audit Services, Region VII
     601 East 12'h Street, Room 0429
     Kansas City, MO 64106



     RE: Report Number A-07-12-02778



     Dear Mr. Cogley:

     Washington University in St. Louis (the University) appreciates the opportunity to respond to the
     DRAFT audit report for American Recovery and Reinvestment Act of 2009 (ARRA) Award Numbers
     2R01HD036904-06A2, SR01HD036904-07Sl & 3R01HD036904-07S1. The University has dedicated
     significant resources over the years towards the proper stewardship, financial management and
     compliance over all federally funded sponsored projects. As noted in your report, the amounts
     claimed and tested during your audit were deemed reasonable, allocable and allowable under OMB
     Circular A-21 and the National Institutes of Health' s Grants Policy Manual, with the exception of
     severa l small amounts.

     During the process of preparing documentation for the on-campus fieldwork period, the University
     identified and questioned the appropriate nature of the items described in the report, and then
     pursued the matter. The related documentation was reviewed by Management and it was
     subsequently determined that these costs should be transferred to other funding sources w ithin the
     academic department. The information related to these transactions wa s provided to the audit
     team prior to the completion of their fieldwork.

     We would like to note our appreciation to the audit team for their considered and professional
     attention to all relevant matters during the audit. The University offers the following response to
     the Recommendations within the report.



    Recommendation #1:
    That the grantee provide supplemental training to department-level staff on grant costs that are
    allowable under Federal regulations, the terms of the grants, and grantee policies.

    University Response:                                                                                               I
    The University agrees that supplemental training regarding the applicable costs policies should be                 !
    provided. Accordingly, Sponsored Projects Accounting will sched ule and provide financial                          i
    management training to the applicable academic and central area personnel.



Washington University In St. l ouis, Campus Box 1034, 700 Rosedale Avenue, St . louis, Missouri 63112-1408
(314) 935·7089, Fax: (314) 935-4309, jglndhart@wustl.edu, www.spa.wustl.edu.
                                                                                                             Page 2 of 4



       Number: A-07-12-02778
Response to Audit, cont.
Page 2




Recommendation #2:
That t he grantee strengthen its internal control s regarding the claiming of cost s charged to federa lly
sponsored projects.

University Response:
As a means of strengthening the overall internal control structure for sponsored funds, t he
University w ill communicate the importance of proper costing and financial management
requirements to our research community and departmental business offices via quarterly research
administrator fo rums, our financial management educational series and other on-line resources.

The on-line transaction review and approval system that the University maintains is designed to
meet the needs of a very diverse and decentralized academic environment. Transactions are
routed for various on-line reviews and approvals wit hin the academic units, departments, schools
and central areas based upon transaction t ype and dollar amount. The University maintains t hat
the internal control structure w ithin our financial management system is sufficient, effective and
compliant with federal costing principles.

We also recognize that t he transactions noted in this report, although minor in dollar amount, were
not allocated in the appropriate manner. In three instances, the telephone transactions fell below
the standard threshold amount that would have triggered a seco ndary review and approval by
Sponsored Proj ects Accounting.



The University would also like to request some revised wording in the DRAFT report. This
information is provided in Attachment A of this document.

If you require any additional informatio n regarding our responses, please contact me direct ly at
314-935-7089 or lglndhart@wustl.edu. Again, thank you for your cooperation throughout this
audit




 OS
Assistant Vice Chancellor for Finance &
 Director, Sponsored Projects Account ing




C:      Barbara A. Feiner
        Gail Peters
        James Korn
                                                                                                                 Page 3 of 4



      Number: A-07-12-02778
Response to Audit, cont.




                                               Attachment A




Washington University has reviewed the DRAFT audit report for ARRA Awards 2R01HD036904-
06A2, 5R01HD036904-07Sl & 3R01HD036904-07Sl and we would like to request some revisions to
certain sections. In our opinion, the revised wording more clearly describes the scope, fie ldwork
and results of the audit.

Report Section - Title of Report
       Washington University in St. Louis Claimed Costs Audit SeFRe YRallewallle Casts Under
       American Recovery and Reinvestment Act of 2009 Grant Numbers...



 Report Section - Findings and Recommendations
        The grantee removed all of these costs from its schedule of claimed costs after we !:las
        ieeRti~iee ti:lese errers e~:~riRg e1:1r fielewerl1 prior to the completion of our field work.




Report Section- Unallowable Costs for Food Served During a Meeting
       Federal regulations specify that food served during a meeting is not allowable if the
       meeting does not have t he primary purpose of disseminating grant-related technical
       information or if the food is served for entertainment purposes. In this case, both of these
       conditions were present. i\f.ter we llae ieleRtifiee ti:lese errers e~:~riRg e~:~r fie1Eiwerl1, tile
       graRtee reFReveEI ti'tis eharge freFR its sci'teEI~:~Ie ef ElaiFReEI eests. The grantee removed this
        charge from its schedule of claimed costs prior to the completion of our f ieldwork.


Report Section- Unallowable Telephone Charges
       The grantee charged $246 f or three telephone charges that norma lly are F&A costs
       pursuant to Federal regulations. F&A costs are treated as indirect costs and, as such,
       generally cannot be claimed as direct costs. Additionally, the grantee's budget object code
       descriptions for each of these three transactions stated that they were" ... not allowed on
       government grants or contracts .... " ,'\fter we !=tad iEleAtifieEI ti'tese errers El~:~riRg e~Jr
       fieiEiwerl<, t~e !:JFaRtee reFRe"eEI ti:lese el:larges freFR its sel:leEI~:~Ie e~ elaiFReEI eests. The
        grantee removed these charges from its schedule of claimed costs prior to the completion of
        our fieldwork.


Report Section- Unallowable Hotel Room Upgrade Charge
       The grantee charged $76 for a hotel room upgrade but did not provide documentation to
       show t hat standard accommodations were not available. As such, this charge was
       unallowable under the grantee's travel policy and t hus also unallowable pursua nt to Federal
       regulations. After we l:lae iEieAtifieelthis eFFer Elt~riRg et~r fieiEI•\'erl1, tl:le graRtee reFReYeEI
       ti:lis eAarge freFR its sei:lee~:~ le ef elaiFReel eests. The grantee removed this charge from its
        schedule of claimed costs prior to the completion of our f ieldwork.
                                                                                                                Page 4 of 4



      Number: A-07-12-Q2778
Response to Audit, cont.




Report Section - Unallowable Alcohol Charges
       The grantee cha rged $19 for alcohol costs, in two separate transactions, that were
        unallowable pursuant to Federal regula tions. Aker we Flael ieleAtifieel tllese errers elt~riAg
        ot~r fieleworl11 tile grafltee remoYeel tF1ese el:larges from its selleEit~ l e of elaimee eosts. The
       grantee removed these charges from its schedule of claimed costs prior to the completion of
       our fieldwork.
                                                                                                    Page 1 of 3


APPENDIX B: NATIONAL INSTITUTES OF HEALTH COMMENTS


                    OF HEALTH &. HUMAN SERVICES                               Public Health Service



                                                                              National Institutes of Health
                                                                              Bethesda, Maryland 20892




 TO:           Patrick J. Cogley
               Regional Inspector General for Audit Services, Region VII

 FROM:         Director, NIH

 DATE:          SEP 1 4 2012
 SUBJECT:      General and Technical Comments on Office of Inspector General (OIG)
               Draft Report, Most of the Costs Claimed by Washington University in St.
               Louis Under American Recovery and Reinvestment Act of2009 Grant
               Numbers 2ROJ HD036904-06A2, 3ROJ HD036904-07Sl, and
               5ROJHD036904-07 Were Allowable (A-07-12-02778)


Attached are the National Institutes of Health's agency comments on the OIG draft report,
Most of the Costs Claimed by Washington University in St. Louis Under American
Recovery and Reinvestment Act of2009 Grant Numbers 2ROJ HD036904-06A2,
3ROJ HD036904-07SJ, and 5ROJ HD036904-07 Were Allowable (A-07-12-02778).

 We appreciate the opportunity to review and comment on the draft report. Should you
 have questions or concerns regarding our comments, please contact Meredith Stein in the
 Office of Management Assessment at 301-402-8482.




                                            Francis S. Collins, M.D., Ph.D.


Attachments:
NIH General Comments on OIG Draft Report A-07-12-02778
NIH Technical Comments on OIG Draft Report A-07-12-02778
                                                                                                     Page 2 of 3






         COMMENTS OF THE NATIONAL INSTITUTES OF HEALTH ON
OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT ENTITLED, MOST OF
THE COSTS CLAIMED BY WASHINGTON UNIVERSITY IN ST. LOUIS UNDER
AMERICAN RECOVERY AND REINVESTMENT ACT OF 2009 GRANT NUMBERS
2ROJHD036904-06A2, 3ROJHD036904-07SJ, AND 5ROJHD036904-07 WERE
ALLOWABLE (A-07-12-02778)


The National Institutes of Health (NIH) appreciates the review conducted by OIG and the
opportunity to provide clarifications on this draft report. We respectfully submit the following
general comments. Technical comments are included as a separate attachment.

0/G Finding 1: Tire 0/G recommends tlrat NIH ensure that tile grantee provides
supplemental training to department-/eve/ staff on grant costs tlrat are allowable under
Federal regulations, tire terms of tire grants and grantee policies (page 5).

The NIH concurs with the OIG's finding and corresponding recommendation to ensure that the
grantee provides supplemental training to department-level staff on grant costs that are allowable
under federal regulations, the terrns of the grants, and grantee policies.

The NIH intends to work with the grantee to ensure this recommendation is implemented as soon
as possible.

0/G Finding 2: Tire 0/G recommends tlrat NIH ensure tlrat tire grantee strengthens its
internal controls regarding tire claiming of costs clrarged to federally sponsored projects
(page 5).

The NIH concurs with the OIG's finding and corresponding recommendation to ensure that the
grantee strengthens its internal controls regarding the claiming of costs charged to federally
sponsored projects.

The NIH intends to work with the grantee to ensure this recommendation is implemented as soon
as possible.
                                                                                                    Page 3 of 3






           COMMENTS OF THE NATIONAL INSTITUTES OF HEALTH ON
OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT ENTITLED, MOST OF
THE COSTS CLAIMED BY WASHINGTON UNIVERSITY IN ST. LOUIS UNDER
AMERICAN RECOVERY AND REINVESTMENT ACT OF 2009 GRANT NUMBERS
2ROJHD036904-06A2, 3ROJHD036904-07Sl, AND 5ROJHD036904-07 WERE
ALLOWABLE (A-07-12-02778)


The National Institutes of Health (NIH) appreciates the review conducted by the OIG and the
opportunity to provide comments on this Draft Report. We respectfully submit the following
technical comments. General comments are included as a separate attachment.

The NIH requests that the Action Official for this report be designated as:

         Meredith Stein
         Director, Division of Risk Management & Audit Liaison
         Office of Management Assessment
         Office of Management
         National Institutes of Health (NIH)

We request that Ms. Stein be designated as the Action Official due to the nature of the findings.
Full resolution of the recommendations may require working across the agency, which this
Action Official has the authority and flexibility to carry out.
